                                                                 Issue Date
                                                                          November 19, 2007
                                                                 Audit Report Number
                                                                          2008-CH-1001




TO:         Thomas S Marshall, Director of Public Housing Hub, 5DPH

                                 for
FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Housing Authority of the City of Michigan City, Indiana, Failed to Follow
           Federal Requirements for Its Nonprofit Development Activities

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Authority of the City of Michigan City’s (Authority)
             nonprofit development activities. The review of public housing authorities’
             development activities is set forth in our annual audit plan. We selected the
             Authority because it was identified as having high-risk indicators of nonprofit
             development activity. Our objective was to determine whether the Authority
             diverted or pledged resources subject to its annual contributions contract
             (contract), other agreement, or regulation for the benefit of non-U.S. Department
             of Housing and Urban Development (HUD) developments.

 What We Found

             The Authority diverted and pledged assets subject to its contract, other
             agreements, or HUD’s regulations for the benefit of Michigan City Housing
             Development, Incorporated (nonprofit), the Authority’s nonprofit entity. It failed
             to file declarations of trust on 32 properties purchased using Turnkey III
             Homeownership (Turnkey III) sales proceeds. It also inappropriately transferred
             ownership of 29 of the 32 properties valued at more than $1.1 million to its
             nonprofit without HUD approval and did not ensure that it complied with its
             HUD-approved plan regarding the use of the sales proceeds. As a result, fewer
             funds were available to serve the Authority’s low-income families.
           Further, the Authority did not comply with HUD’s property disposition
           requirements and did not ensure that its nonprofit used the proceeds from the sale
           of property in accordance with its agreement with HUD. As a result, HUD lacks
           assurance that the sale of the property served the best interests of HUD, the
           Authority, and its residents.

           We informed the Authority’s executive director and the Director of HUD’s
           Cleveland Office of Public Housing of minor deficiencies through a
           memorandum, dated November 19, 2007.


What We Recommend

           We recommend that the Director of HUD’s Cleveland Office of Public Housing
           require the Authority to submit executed declarations of trust for the Turnkey III
           properties to HUD, negotiate with its nonprofit to transfer ownership of the 29
           Turnkey III properties back to the Authority and amend its promissory note with
           Horizon Bank to remove the properties held as collateral or pay HUD for the
           properties from nonfederal funds, reimburse its Public Housing program from
           nonfederal funds for rental income received from the Turnkey III properties, and
           replenish its Public Housing program to comply with its approved HUD plan or
           provide a revised plan to HUD for review and approval. We also recommend that
           the Director require the Authority to implement adequate procedures and controls
           for monitoring the progress of the urban park development or exercise its right to
           reversion of title if the park is not fully developed, negotiate with its nonprofit to
           discontinue using sales proceeds to pay interest payments, and implement a
           written plan for use of the proceeds. Additionally, we also recommend that the
           Director take appropriate action to declare the Authority in substantial default of its
           contract.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided our discussion draft audit report to the Authority’s executive
           director, its board chairperson, and HUD’s staff during the audit. We held an exit
           conference with the executive director on October 19, 2007.

           We asked the Authority’s executive director to provide comments on our
           discussion draft audit report by November 9, 2007. The executive director
           provided written comments dated, November 6, 2007. The executive director



                                              2
generally agreed with our findings and neither agreed nor disagreed with our
recommendations. The complete text of the Authority’s written comments, along
with our evaluation of those comments, can be found in appendix B of this report.




                                3
                             TABLE OF CONTENTS

Background and Objective                                                              5

Results of Audit

      Finding 1: The Authority Did Not File Declarations of Trust for Purchased
                 Properties and Inappropriately Transferred Assets to Its Nonprofit   6

      Finding 2: The Authority Did Not Comply with HUD’s Property Disposition
                 Requirements                                                         10

Scope and Methodology                                                                 13

Internal Controls                                                                     14

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                  16
   B. Auditee Comments and OIG’s Evaluation                                           17
   C. Federal Requirements                                                            20




                                              4
                      BACKGROUND AND OBJECTIVE

The Housing Authority of City of Michigan City (Authority) was established by the City of
Michigan City, Indiana (City), on June 26, 1950, under Section 36-7-18-4 of the Indiana Code to
provide decent, safe, and sanitary housing for low- and moderate-income families under the
United States Housing Act of 1937. A seven-member board of commissioners, appointed by the
City’s mayor governs the Authority. The board’s responsibilities include overseeing the
Authority’s operations as well as the review and approval of its policies. The board appoints the
Authority’s executive director, who is responsible for carrying out the board’s policies and
managing the Authority’s day-to-day operations.

The Authority administers Section 8 Housing Choice Voucher, Public Housing, and Public
Housing Capital Fund programs. As of August 28, 2007, under its annual contribution contract
(contract) with the U.S. Department of Housing and Urban Development (HUD), the Authority
operates 194 units of subsidized housing in the City for its Public Housing program. Under a
separate contract with HUD, the Authority manages a Section 8 Housing Choice Voucher
(Section 8) program with 261 Section 8 vouchers. The Authority’s books and records are located
at 621 East Michigan Boulevard, Michigan City, Indiana.

In February 2002, the Authority established Michigan City Housing Development, Incorporated
(nonprofit), a 501(c)(3) nonprofit, to provide additional affordable residential accommodations
for low- and moderate-income families. The nonprofit is an affiliate of the Authority.

In accordance with its agency plan, a public housing agency may form and operate wholly
owned or controlled subsidiaries or other affiliates. Such wholly owned or controlled
subsidiaries or other affiliates may be directed, managed, or controlled by the same persons who
constitute the board of directors or similar governing body of the public housing agency, or who
serve as employees or staff of the public housing agency, but remain subject to other provisions
of laws and conflicts of interest requirements. Further, a public housing agency, in accordance
with its agency plan, may enter into joint ventures, partnerships, or other business arrangements
with or contract with any person, organization, entity, or governmental unit with respect to the
administration of the programs of the public housing agency such as developing housing or
providing supportive/social services subject to either Title I of the United States Housing Act of
1937, as amended, or state law.

We selected the Authority for audit because it was identified as having high-risk indicators of
nonprofit development activity. Our objective was to determine whether the Authority diverted
or pledged resources subject to its annual contributions contract, other agreement, or regulation
for the benefit of non-HUD developments without specific HUD approval.




                                                5
                                RESULTS OF AUDIT

Finding 1: The Authority Did Not File Declarations of Trust for
   Purchased Properties and Inappropriately Transferred Assets to Its
                              Nonprofit
The Authority failed to file declarations of trust on 32 properties purchased using Turnkey III
Homeownership (Turnkey III) sales proceeds. It also substantially defaulted on its contract when
it improperly transferred ownership of 29 of the 32 properties valued at more than $1.1 million,
to its nonprofit without HUD approval. Additionally, the Authority did not ensure that it
complied with its HUD-approved plan regarding the use of sales proceeds. The problems
occurred because the Authority lacked adequate procedures and controls to ensure that it
complied with its contract, HUD’s regulations, and its approved plan governing the use of its
sales proceeds. As a result, HUD’s interest in the properties was not secured, and the Authority
did not operate its projects in the best interest of its residents.


 Turnkey III Units
            In December 1991, the Authority requested a debt forgiveness waiver and refund
            request for the proceeds from the sale of Turnkey III units. The waiver included a
            request to waive all future available proceeds from the sale of Turnkey III units. In
            January 1993, HUD approved the Authority’s refund request and its planned use of
            the proceeds from the sale of the Turnkey III units. Therefore, HUD returned more
            than $980,000 to the Authority in sales proceeds from June 1986 to September
            1993. HUD requested the Authority to inform the appropriate HUD field office of
            all future Turnkey III sales and when all units had been sold. HUD also requested
            the Authority to provide documentation to establish the status of proceeds and/or
            the project at the time of the request in order for future funds to be released in
            accordance with its approved plan.

            As of September 2007, the Authority received more than $2.5 million in sales
            proceeds from 171 Turnkey III units sold between 1986 and 2007. HUD’s records
            showed approximately $980,000 in sales proceeds because the Authority did not
            inform HUD of the more than $1.5 million in sales proceeds it received from the
            Turnkey III units sold.

 Declarations of Trust Not Filed
 and Assets Inappropriately
 Transferred to the Nonprofit

            Using more than $1.2 million in sales proceeds, the Authority purchased 32
            properties, consisting of 21 homes and 11 parcels of land. However, it failed to file


                                               6
          declarations of trust with the county for the purchased properties as evidence (as a
          restrictive covenant) that it would not convey or encumber the property as required
          by its contract with HUD.

          In 2002, the Authority sold three of the properties, and during 2004 and 2005, it
          transferred the remaining 29 properties totaling more than $1.1 million to its
          nonprofit without HUD approval. As of September 2007, the nonprofit had
          received more than $337,000 in rental income for the 29 properties.

Nonprofit’s Line of Credit


          The Authority pledged assets to obtain a line of credit without HUD approval as
          required by the contract. From August 1995 through February 2001, the Authority
          purchased 13 properties with the sales proceeds from the Turnkey III units. In
          March 2001, it obtained a promissory note for a $500,000 line of credit with
          Horizon Bank (bank) to finance the purchase and renovation of additional homes to
          rent to low-income families. In November 2001, it transferred the note to its
          nonprofit and used 10 of the 13 properties purchased with sales proceeds as
          collateral.

          In March 2004, the nonprofit increased its line of credit with the bank to $1 million.
          In addition to 10 properties already held by the bank as collateral, the Authority
          added 16 properties to the agreement. Of the 16 properties, seven were purchased
          using Turnkey III sales proceeds; three were purchased with Public Housing
          operating funds, which were reimbursed to the Public Housing program; and the
          remaining six properties were not purchased using HUD funds. Therefore, 17
          properties purchased from the sales proceeds were used as collateral. As of
          September 2007, the nonprofit had purchased six properties with the line of credit
          and owed more than $752,000 on the loan.

Sales Proceeds Not Used in
Accordance with Approved
Plan

          According to the HUD-approved plan to govern the use of the more than $678,000
          in sales proceeds, the Authority would use $500,000 or 74 percent of the proceeds
          to acquire or rehabilitate properties and the remaining 26 percent or $178,424 to
          replenish the reserve level of its Public Housing program. However, as of
          September 2007, the Authority had only replenished its Public Housing program by
          $158,424; thus, $20,000 in additional funding was planned but not used.
          Additionally, the Authority stipulated in its plan that it did not intend to use the
          sales proceeds to operate another form of housing program; however, it transferred
          properties purchased with sales proceeds for its nonprofit to operate a housing
          program.



                                             7
Adequate Procedures and
Controls Lacking

         The Authority lacked adequate procedures and controls to ensure that it complied
         with its contract, HUD’s regulations, and its approved plan governing the use of its
         sales proceeds. According to the executive director, she thought that since HUD
         forgave the debt owed on the Turnkey III units, the properties purchased with the
         proceeds from the sale of the units, which was an approved activity under its
         administrative use agreement with HUD, were not HUD properties.

         As a result of the inappropriate property transfers and the Authority’s failure to
         comply with its plan for the use of sales proceeds, the Authority misused assets
         totaling more than $1.5 million for the benefit of its nonprofit. Additionally,
         HUD’s interest in the properties was not secured, and the Authority did not operate
         its projects in the best interest of its residents.

Recommendations

           We recommend that the Director of HUD’s Cleveland Office of Public Housing
           require the Authority to

           1A.    Submit to HUD a listing of all Turnkey III units sold and the associated
                  sales proceeds, as well as all future Turnkey III sales and proceeds.

           1B.    Submit fully executed declarations of trust for the 29 Turnkey III
                  properties to HUD for review to safeguard HUD’s interests and prevent
                  future conveyances or encumbrances without HUD’s approval.

           1C.    Seek to have its nonprofit transfer ownership of the 29 Turnkey III
                  properties totaling $1,183,008 purchased with sales proceeds from its
                  nonprofit back to the Authority or pay HUD for the properties from
                  nonfederal funds.

           1D.    Reimburse its Public Housing program $337,870 from nonfederal funds
                  for the rental income received by its nonprofit from the Turnkey III
                  properties.

           1E.    Negotiate with its nonprofit to amend the promissory note with the bank to
                  remove the 17 Turnkey III properties held as collateral from the terms of the
                  agreement.

           1F.    Transfer to its Public Housing restricted reserve account $20,000 as
                  required by its HUD-approved plan governing the use of sales proceeds.




                                            8
We also recommend that the Director of HUD’s Cleveland Office of Public Housing

1G.    Take appropriate action to declare the Authority in substantial default of its
       contract.




                                 9
Finding 2: The Authority Did Not Comply with HUD’s Property
                     Disposition Requirements
The Authority did not comply with HUD’s property disposition requirements. Additionally, it
did not ensure that its nonprofit used the sales proceeds in accordance with its agreement with
HUD. The problems occurred because the Authority lacked adequate procedures and controls to
ensure that it monitored the City and reported to HUD on the progress of approved
demolition/disposition activities and that its nonprofit used the sales proceeds for their intended
purposes. As a result, HUD lacks assurance that the sale of land, formerly Harborside Homes,
served the best interests of HUD, the Authority, and its residents.



 HUD Approved the
 Demolition/Disposition of
 Project Assets

               In November 1995, HUD approved the Authority’s request for the demolition of
               32 units located on the site of the former Harborside Homes housing project. On
               April 23, 2002, HUD approved the disposition of the entire site, consisting of 4.12
               acres and the remaining 55 units at Harborside Homes, by public bid at the fair
               market value of $1.2 million or higher.

               In January 2002, the Authority, along with the City, submitted a request to HUD
               proposing the conveyance of the property to the City to develop an urban park
               with a recreational trail for a negotiated sale price of $550,000, which was
               $650,000 less than the fair market value. The sale proceeds would be paid to its
               affiliated nonprofit for the construction of affordable housing and/or additional
               Public Housing units.

               In April 2002 based upon the proposal, HUD approved the sale of the Harborside
               Homes project to the City. In January 2003, HUD provided the Authority with a
               deed of conveyance for the property. However, the deed contained a requirement
               that the conveyance of the property be subject to the City’s developing an urban
               park with a recreational train and a core pedestrian precinct as part of its
               infrastructure. Additionally, if the City failed to develop the property, the
               Authority would have a right of reversion of title, which expires in 2013.

               In June 2002, the Authority entered into a memorandum of understanding with
               the City. The memorandum outlined HUD’s restriction over the conveyance of
               the land to the City, the requirements for the urban park, and the intended use of
               the $550,000 by the nonprofit.




                                                10
The City Had Not Begun
Development of the Park


            As of September 2007, the City had not begun developing the land for the park.
            According to the mayor, the development of the park would not begin until the
            City purchased another adjacent company. However, he was unable to provide a
            date or assurance that the purchase would occur. HUD’s approval for the
            negotiated sale of the site of the former housing project was not contingent upon
            the purchase of another company, nor was the stipulation in the deed of
            conveyance or the memorandum of agreement between the Authority and the
            City.

            As previously mentioned, the Authority’s right of reversion of title expires on
            July 1, 2013. Although the City had approximately six years remaining, it had not
            developed any plans for the proposed park as of September 2007. Additionally,
            the Authority was unable to provide records or progress reports that were required
            to assist in monitoring the approved demolition/disposition activity.

The Nonprofit Had Not Used
the Funds for Their Intended
Purposes


            The nonprofit had not used the $550,000 it received from the City to provide
            affordable housing and/or additional Public Housing units. The Authority used
            $145,832 of the $550,000 to pay the interest on a line of credit used to secure the
            17 properties purchased with Turnkey III sales proceeds (see finding 1). As of
            July 2007, the amount reflected on the nonprofit’s financial documents was
            $594,838, and the nonprofit had not developed a written plan for the use of the
            funds.

The Authority Lacked
Adequate Procedures and
Controls


            The Authority lacked adequate procedures and controls to ensure that (1) it
            properly monitored the City for compliance and reported the development
            progress to HUD and (2) its nonprofit used the proceeds from the sale for the
            intended purposes. According to the Authority’s executive director and the vice-
            chairperson of the board, they were unaware that they were supposed to monitor
            the City’s progress in constructing the park and report this information to HUD
            under HUD’s disposition requirements. Additionally, they also did not know
            about HUD’s restriction over the conveyance of the land.




                                             11
         As a result, HUD and the Authority lack assurance that the sale of property served
         the best interest of HUD, the Authority, and its residents. If the City does not
         perform according to its agreement with the Authority, the Authority would lose
         the property and the potential to receive fair market value from the sale of the
         property.

Recommendations

         We recommend that the Director of HUD’s Cleveland Office of Public Housing
         require the Authority to

         2A.      Implement adequate procedures and controls for monitoring the progress
                  of the urban park development or exercise its right to reversion of title if
                  the park is not fully developed before July 1, 2013. This process will
                  include but not limited to monitoring the development of the park and
                  reporting progress to HUD. By implementing adequate procedures and
                  controls, the Authority will help to ensure that the property valued at
                  $1,200,000 is used for its intended purpose.

         2B.      Negotiate with its nonprofit to discontinue using the proceeds from the
                  sale of Harborside Homes to pay the interest on the line of credit and
                  implement a written plan for the use of $594,838 to provide affordable
                  housing and/or additional Public Housing units as intended and submit the
                  plan to HUD.




                                            12
                        SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

   •   Applicable laws, regulations, the Authority’s contract with HUD, HUD program
       requirements at 24 CFR [Code of Federal Regulations] Parts 85 and 970, Office of
       Management and Budget Circular A-87, declaration of trust between HUD and the
       Authority, Directive 99-19 requirement for demolition/disposition of Public Housing
       projects, loan forgiveness amendment to the annual contributions contract (Turnkey III),
       and Administrative Use Agreement for Proceeds of Sales of Homeownership Projects.

   •   The Authority’s financial and accounting records, annual audited financial statements for
       2005, general ledgers for 2000 through 2006, bank statements and cancelled checks, by-
       laws, policies and procedures, board meeting minutes, organizational chart, and nonprofit
       development activity documentation.

   •   The nonprofit’s articles of incorporation, bylaws, board of directors, organizational chart,
       and development activity documentation.

   •   HUD’s files for the Authority.

We also interviewed the Authority’s and the nonprofit’s employees and/or board members and
HUD staff.

We performed our on-site audit work between January and July 2007. The audit covered the
period October 1, 2005, through December 31, 2006. We extended this period as necessary. We
conducted the audit in accordance with generally accepted government auditing standards.




                                                13
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objective:

                  •   Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                  •   Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                  •   Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                  •   Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed all of the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                                14
Significant Weakness

            Based on our review, we believe the following item is a significant weakness:

               •   The Authority lacked adequate procedures and controls to ensure that it
                   complied with its contract and/or HUD’s regulations regarding the
                   protecting of HUD’s interest in property by filing declarations of trust,
                   disposing of real property, complying with its plan for the use of sales
                   proceeds, monitoring the City and reporting to HUD on the progress of
                   approved demolition/disposition activities, and ensuring that its nonprofit
                   used the proceeds from the sale for their intended purposes (see findings 1
                   and 2).




                                            15
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


                  Recommendation                         Funds to be put
                      number            Ineligible 1/    to better use 2/
                        1C               $1,183,008
                        1D                  337,870
                        1F                                   $20,000
                        2A                                 1,200,000
                        2B                                   594,838
                       Totals           $1,520,878        $1,814,838


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In these instances, if the Authority implements our
     recommendations, it will ensure that (1) Turnkey III sales proceeds are used in
     accordance with its HUD-approved plan and (2) the disposed property, valued at $1.2
     milllion, and its proceeds from the demolition/disposition are used for their intended
     purposes.




                                            16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                            17
            Auditee Comments




Comment 2




Comment 3




                   18
                          OIG’s Evaluation of Auditee Comments


Comment 1     The Authority did not provide any documentation to support its position that the
              U.S. Department of Housing and Urban Development was aware of all proceeds
              received from the sale of its Turnkey III units.

Comment 2 The Authority did not provide any documentation, as evidence, to show the
          repairs and/or expenses incurred for the upkeep of the properties purchased using
          Turnkey III Homeownership sales proceeds.

Comment 3     According to HUD’s requirements, the Authority should have kept the
              appropriate HUD field office informed of significant actions in carrying out the
              demolition or disposition, including any significant delays or other problems.




                                              19
Appendix C
                           FEDERAL REQUIREMENTS

Finding 1

Section 5 of the contract with HUD states that the Authority shall develop and operate all
projects covered by this contract in compliance with all of the provisions of this contract and all
applicable statutes, executive orders, and regulations issued by HUD, as they shall be amended
from time to time, including but not limited to those regulations promulgated by HUD at Title 24
of the Code of Federal Regulations, which are hereby incorporated into this contract by
reference herein, as such regulations shall be amended from time to time. The Authority shall
also ensure compliance with such requirements by any contractor or subcontractor engaged in
the development or operation of a project covered under this contract.

Section 7 of the contract with HUD states that the Authority shall not demolish or dispose of any
project, or portion thereof, other than in accordance with the terms of this contract and applicable
HUD requirements. With the exception of entering into dwelling leases with eligible families for
dwelling units in the projects covered by this contract and normal uses associated with the
operation of the project(s), the Authority shall not in any way encumber any such projects, or
portion thereof, without the approval of HUD. In addition, the Authority shall not pledge as
collateral for a loan the assets of any project covered under this contract.

Section 8 of the contract with HUD states that promptly upon the acquisition of the site of any
project, the Authority shall execute and deliver an instrument (which may be in the form of a
declaration of trust, a trust indenture, or such other document as may be approved by HUD),
confirming and further evidencing, among other things, the covenant of the Authority not to
convey or encumber the project except as expressly authorized in the contract. Such instrument
and all amendments shall be duly recorded or filed for record wherever necessary to give public
notice or their contents and to protect the rights and interests of HUD and of any bondholders.
The Authority shall furnish HUD with appropriate evidence of such recording or filing. From
time to time, as additional real property is acquired by the authority in connection with the
projects, the Authority shall promptly amend such instrument to incorporate all such real
property and shall record the instrument, as amended.

Section 15(A) of the contract with HUD states that the Authority must maintain complete and
accurate books of account for the projects of the Authority in such a manner as to permit the
preparation of statements and reports in accordance with HUD requirements and to permit timely
and effective audit.

Paragraph 5 of the declaration of trust states that the right to require the local authority to remain
seized of the title to said property and to refrain from transferring, conveying, assigning, leasing,
mortgaging, pledging, or otherwise encumbering said property or any part thereof, appurtenances
thereto, or any rent revenues, income or receipts there from or in connection therewith, or any of
the benefits or contributions granted to it by or pursuant to the contract.



                                                 20
The loan forgiveness amendment to the contract for Turnkey III, section (B), states “Where the
Government approves the disposition of real property, the local authority shall dispose of it
promptly by public solicitation of bids for not less than fair market value, unless the Government
authorized a negotiated sale for reasons found to be in the best interests of the local authority, or
federal government, or sale for less than fair market value (where permitted by state law) based
on commensurate benefits to the community, the local authority for the federal government
justifying such an exception.”

Section (e) of the amendment states that the deposit and use of funds transferred into the
replacement reserve are subject to and conditioned upon waiver of any regulatory requirements
providing for return of such funds to HUD, the development and submission of a plan by the
local authority and approved by HUD for the use of such funds, and a contractual agreement
between the local authority and HUD governing the use of replacement reserve funds.

Administrative Use Agreement for Proceeds of Sales of Homeownership Projects, section 3.1,
states that proceeds of sale may be used only for any lower income housing approved by HUD,
including locally sponsored and directed homeownership programs. Eligible uses include the
development, acquisition, or rehabilitation of housing for use by low- and very low-income
families, as well as other forms of assistance (referrals, loans, buydowns, and etc.) to such
families for the purpose of obtaining decent, safe, and sanitary housing.

Section 3.2 of the agreement states that proceeds of sale must be used in accordance with the
requirements and provisions of this agreement (including any exhibits hereto and the plan used
of sale proceeds) and shall be retained in the appropriate replacement reserve account until so
used.

Section 3.6 of the agreement states that the Authority’s board of commissioners shall be
responsible for ensuring that proceeds of sale are used in accordance with the requirements of
this agreement. The board of commissioners also shall be responsible for all authorities of any
program development with or for use with such proceeds of sale.

Section 3.7 of the agreement states that the Authority must obtain HUD approval under section
17.2 to modify any of the provisions of the plan for use of sale proceeds.

Section 3.8 of the agreement states that the use of proceeds of sale in conjunction with existing
HUD-assisted projects in operation (subject to a contact) shall require, if approved by HUD that
such funds shall be subject to the statutory, regulatory and contractual requirements of HUD-
assisted project in operation, in addition to the requirements of this agreement.

Section 15.1 of the agreement states that the agreement, which consists of part 1, the plan for the
use of sale proceeds incorporated as part II and any exhibits attached hereto, constitutes the
entire agreement between HUD and the Authority with respect to the subject matter hereof. This
agreement may be amended or modified only by written instrument duly authorized and
executed by the parties hereto.




                                                 21
Section 16.2 states that this agreement, or any part hereof, may be amended only in writing duly
authorized and executed by HUD and the Authority. The Authority must obtain HUD approval
under this section to modify any of the provisions of this agreement, including without
limitation, any provision of the plan for use of sale proceeds under part II.

Section 17(B) of the contract states that a substantial default is a serious and material violation
by the Authority of any one or more of the covenants contained in the contract. Events of
substantial default include the disposition of any project, or portion thereof, without HUD
approval. Upon the occurrence of a substantial default, as determined by HUD and in
accordance with the contract, HUD shall be entitled to any or all of the remedies set forth in
paragraphs (E), (F), and (H) in this section.

Section 17(C) states that delivery of a notice of substantial default shall be required before HUD
exercises any remedy under the contract. The notice shall identify the specific covenants,
statutes, executive orders, or regulations alleged to have been violated; identify the specific
events, actions, failure to act, or conditions that constitute the alleged substantial default; and
provide a specific timeframe for the Authority to cure the substantial default, taking into
consideration the nature of the default.

Section 17(E) states that upon occurrence of substantial default or expiration of any applicable
cure period provided by HUD, the Authority shall convey to HUD title to the project(s) as
demanded by HUD if, in HUD’s determination, such conveyance of title is necessary to achieve
the purposes of the United States Housing Act of 1937, or deliver possession and control of the
project(s) to HUD.

Section 17(F) states that nothing contained in the contract shall prohibit or limit HUD from
exercising any other right or remedy existing under applicable law or available at equity. HUD’s
exercise or nonexercise of any right or remedy under this contract shall not be construed as a
waiver of HUD’s right to exercise that or any other right or remedy at any time.

Section 17(H) states that HUD may at any time by notice to the Authority declare the contract
terminated with respect to any project that at such time has not been permanently financed if a
substantial default exists in connection with any of the projects, provided that no such
termination shall effect any obligation of HUD to make annual contributions pursuant to section
12 of attachment VI, part B, of the contract.

Finding 2

HUD’s requirements at 24 CFR [Code of Federal Regulations] 970.1 state: “Where HUD
approves the disposition of real property of a project, in whole or in part, the authority shall
dispose of it promptly by public solicitation of bids for not less than fair market value, unless
HUD authorizes negotiated sale for reasons found to be in the best interest of the authority or the
Federal Government.”

HUD’s requirements at 24 CFR [Code of Federal Regulations] 970.14(a) state that after HUD
approval of demolition or disposition of all or part of a project, the authority shall keep the



                                                 22
appropriate HUD field office informed of significant actions in carrying out the demolition or
disposition, including any significant delays or other problems. When demolition or disposition
is completed, the authority shall submit to the field office a report confirming such action,
certifying compliance with all applicable requirements of federal law and regulations, and in the
case of disposition, accounting for the proceeds and costs of disposition. Section (b) states that
the authority shall be responsible for keeping records of its HUD-approved demolition or
disposition sufficient for audit by HUD to determine the authority’s compliance with applicable
requirements of federal law and this part.

The deed of conveyance between HUD and the Authority states that the conveyance of the
subject property is subject to the grantee’s developing an urban park with recreation trail and a
core pedestrian precinct as part its infrastructure. If the grantee fails to develop the property as
described, the grantor shall have an exercisable right of reversion of title. Grantor’s right of
reversion shall expire on July 1, 2013, such that this restriction shall not be construed to run with
the land in perpetuity. The conveyance shall be further subject to all liens; encumbrances; taxes;
and matters of record including but not limited to covenants, limitations, restrictions, easements
of record, and legal rights of way.

The memorandum of understanding between the Authority and the City, section 1(A), states that
the City will acquire the property from the Authority. The deed shall contain a restriction that
the conveyance is for the purpose of the development of a recreational park and the property
shall revert to the Authority if this purpose is not met.

Section 1B of the memorandum, states that the City shall pay, as the purchase price for the
property, the sum of $550,000. The purchase price shall be paid to the Authority’s affiliated not-
for-profit entity to be used for construction of affordable housing and/or additional units of
public housing.

Section D of the memorandum states that the City will develop an urban park and extend a
recreational trail through the property and will create a core pedestrian precinct as part of the
infrastructure, allowing residents of the adjacent boulevard gardens to access a safe and
aesthetically pleasing walkway to the waterfront recreation area.




                                                 23
